CERTIFICATE OF SERVICE
No. 20Franqui Francisco Flores de Freitas,
Petitioner,
v.
United States of America et al.,
Respondents.
I, Michael A. Levy, do hereby certify that, on this seventeenth day of August,
2020, I caused a copy and an electronic copy of the Petition for a Writ of Certiorari
in the foregoing case to be served by first class mail, postage prepaid, and by email,
on the following parties:
NOEL J. FRANCISCO
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
EMIL JOSEPH BOVE, III
WON S. SHIN
Assistant U.S. Attorneys
United States Attorney’s Office for
the Southern District of New York
1 St. Andrew’s Plaza
New York, NY 10007
(212) 637-2200
emil.bove@usdoj.gov
won.shin@usdoj.gov

JOHN ZACH
Boies Schiller Flexner LLP
55 Hudson Yards
New York, NY 10001
(212) 446-2300
jzach@bsfllp.com
Counsel for Respondent Efrian
Antonio Campo Flores

Counsel for Respondent United
States of America
/s/ Michael A. Levy
MICHAEL A. LEVY
SIDLEY AUSTIN LLP
787 Seventh Avenue
New York, NY 10019
(212) 839-5300

